Addendum
17 U.S.C. § 101 (excerpted) ..................................... 1a
17 U.S.C. § 110 (excerpted) ..................................... 2a
17 U.S.C. § 408 ........................................................ 5a
17 U.S.C. § 409 ...................................................... 10a
17 U.S.C. § 410 ...................................................... 12a
17 U.S.C. § 411 ...................................................... 14a
17 U.S.C. § 412 ...................................................... 16a
17 U.S.C. § 505 ...................................................... 17a
17 U.S.C. § 506 ...................................................... 18a
17 U.S.C. § 507 ...................................................... 21a
37 C.F.R. § 202.3 (excerpted) ................................ 22a
U.S. Copyright Office, Compendium of U.S.
Copyright Office Practices § 607.01 (2d ed. 1988)
(excerpted) ............................................................. 23a
U.S. Copyright Office, Compendium of U.S.
Copyright Office Practices, §§ 1009.4, 1103, 1904.1
(3d ed. 2017) (excerpted) ....................................... 24a
Copyright registration application for EH101 ..... 33a

1a
17 U.S.C. § 101
§ 101. Definitions
…
A “derivative work” is a work based upon one or
more preexisting works, such as a translation, musical arrangement, dramatization, fictionalization,
motion picture version, sound recording, art reproduction, abridgment, condensation, or any other
form in which a work may be recast, transformed,
or adapted. A work consisting of editorial revisions,
annotations, elaborations, or other modifications
which, as a whole, represent an original work of authorship, is a “derivative work”.
…
“Publication” is the distribution of copies or
phonorecords of a work to the public by sale or other
transfer of ownership, or by rental, lease, or lending. The offering to distribute copies or
phonorecords to a group of persons for purposes of
further distribution, public performance, or public
display, constitutes publication. A public performance or display of a work does not of itself constitute publication.
…

2a
17 U.S.C. § 110
§ 110. Limitations on exclusive rights: Exemption of certain performances and displays
Notwithstanding the provisions of section 106, the following are not infringements of copyright:
(1) performance or display of a work by instructors
or pupils in the course of face-to-face teaching activities of a nonprofit educational institution, in a
classroom or similar place devoted to instruction,
unless, in the case of a motion picture or other audiovisual work, the performance, or the display of
individual images, is given by means of a copy that
was not lawfully made under this title, and that the
person responsible for the performance knew or
had reason to believe was not lawfully made;
(2) except with respect to a work produced or marketed primarily for performance or display as part
of mediated instructional activities transmitted via
digital networks, or a performance or display that
is given by means of a copy or phonorecord that is
not lawfully made and acquired under this title,
and the transmitting government body or accredited nonprofit educational institution knew or had
reason to believe was not lawfully made and acquired, the performance of a nondramatic literary
or musical work or reasonable and limited portions
of any other work, or display of a work in an amount
comparable to that which is typically displayed in
the course of a live classroom session, by or in the
course of a transmission, if—

3a
(A) the performance or display is made by, at the
direction of, or under the actual supervision of an
instructor as an integral part of a class session
offered as a regular part of the systematic mediated instructional activities of a governmental
body or an accredited nonprofit educational institution;
(B) the performance or display is directly related
and of material assistance to the teaching content of the transmission;
(C) the transmission is made solely for, and, to
the extent technologically feasible, the reception
of such transmission is limited to—
(i) students officially enrolled in the course for
which the transmission is made; or
(ii) officers or employees of governmental bodies as a part of their official duties or employment; and
(D) the transmitting body or institution—
(i) institutes policies regarding copyright, provides informational materials to faculty, students, and relevant staff members that
accurately describe, and promote compliance
with, the laws of the United States relating to
copyright, and provides notice to students that
materials used in connection with the course
may be subject to copyright protection; and
(ii) in the case of digital transmissions—

4a
(I) applies technological measures that reasonably prevent—
(aa) retention of the work in accessible
form by recipients of the transmission
from the transmitting body or institution
for longer than the class session; and
(bb) unauthorized further dissemination
of the work in accessible form by such recipients to others; and
(II) does not engage in conduct that could
reasonably be expected to interfere with
technological measures used by copyright
owners to prevent such retention or unauthorized further dissemination;
…

5a
17 U.S.C. § 408
§ 408. Copyright registration in general
(a) Registration Permissive.—At any time during
the subsistence of the first term of copyright in any
published or unpublished work in which the copyright
was secured before January 1, 1978, and during the
subsistence of any copyright secured on or after that
date, the owner of copyright or of any exclusive right
in the work may obtain registration of the copyright
claim by delivering to the Copyright Office the deposit
specified by this section, together with the application
and fee specified by sections 409 and 708. Such registration is not a condition of copyright protection.
(b) Deposit for Copyright Registration.—Except
as provided by subsection (c), the material deposited
for registration shall include—
(1) in the case of an unpublished work, one complete copy or phonorecord;
(2) in the case of a published work, two complete
copies or phonorecords of the best edition;
(3) in the case of a work first published outside the
United States, one complete copy or phonorecord as
so published;
(4) in the case of a contribution to a collective work,
one complete copy or phonorecord of the best edition of the collective work.
Copies or phonorecords deposited for the Library of
Congress under section 407 may be used to satisfy the

6a
deposit provisions of this section, if they are accompanied by the prescribed application and fee, and by any
additional identifying material that the Register may,
by regulation, require. The Register shall also prescribe regulations establishing requirements under
which copies or phonorecords acquired for the Library
of Congress under subsection (e) of section 407, otherwise than by deposit, may be used to satisfy the deposit provisions of this section.
(c) Administrative Classification and Optional
Deposit.—
(1) The Register of Copyrights is authorized to
specify by regulation the administrative classes
into which works are to be placed for purposes of
deposit and registration, and the nature of the copies or phonorecords to be deposited in the various
classes specified. The regulations may require or
permit, for particular classes, the deposit of identifying material instead of copies or phonorecords,
the deposit of only one copy or phonorecord where
two would normally be required, or a single registration for a group of related works. This administrative classification of works has no significance
with respect to the subject matter of copyright or
the exclusive rights provided by this title.
(2) Without prejudice to the general authority provided under clause (1), the Register of Copyrights
shall establish regulations specifically permitting a
single registration for a group of works by the same
individual author, all first published as contributions to periodicals, including newspapers, within a
twelve-month period, on the basis of a single

7a
deposit, application, and registration fee, under the
following conditions:
(A) if the deposit consists of one copy of the entire
issue of the periodical, or of the entire section in
the case of a newspaper, in which each contribution was first published; and
(B) if the application identifies each work separately, including the periodical containing it and
its date of first publication.
(3) As an alternative to separate renewal registrations under subsection (a) of section 304, a single
renewal registration may be made for a group of
works by the same individual author, all first published as contributions to periodicals, including
newspapers, upon the filing of a single application
and fee, under all of the following conditions:
(A) the renewal claimant or claimants, and the
basis of claim or claims under section 304(a), is
the same for each of the works; and
(B) the works were all copyrighted upon their
first publication, either through separate copyright notice and registration or by virtue of a general copyright notice in the periodical issue as a
whole; and
(C) the renewal application and fee are received
not more than twenty-eight or less than twentyseven years after the thirty-first day of December
of the calendar year in which all of the works
were first published; and

8a
(D) the renewal application identifies each work
separately, including the periodical containing it
and its date of first publication.
(d) Corrections and Amplifications.—The Register may also establish, by regulation, formal procedures for the filing of an application for
supplementary registration, to correct an error in a
copyright registration or to amplify the information
given in a registration. Such application shall be accompanied by the fee provided by section 708, and
shall clearly identify the registration to be corrected
or amplified. The information contained in a supplementary registration augments but does not supersede that contained in the earlier registration.
(e) Published Edition of Previously Registered
Work.—Registration for the first published edition of
a work previously registered in unpublished form
may be made even though the work as published is
substantially the same as the unpublished version.
(f) Preregistration of works being prepared for
commercial distribution.—
(1) Rulemaking.—Not later than 180 days after
the date of enactment of this subsection, the Register of Copyrights shall issue regulations to establish procedures for preregistration of a work that is
being prepared for commercial distribution and has
not been published.
(2) Class of works.—The regulations established
under paragraph (1) shall permit preregistration
for any work that is in a class of works that the

9a
Register determines has had a history of infringement prior to authorized commercial distribution.
(3) Application for registration.—Not later
than 3 months after the first publication of a work
preregistered under this subsection, the applicant
shall submit to the Copyright Office—
(A) an application for registration of the work;
(B) a deposit; and
(C) the applicable fee.
(4) Effect of untimely application.—An action
under this chapter for infringement of a work preregistered under this subsection, in a case in which
the infringement commenced no later than 2
months after the first publication of the work, shall
be dismissed if the items described in paragraph (3)
are not submitted to the Copyright Office in proper
form within the earlier of—
(A) 3 months after the first publication of the
work; or
(B) 1 month after the copyright owner has
learned of the infringement.

10a
17 U.S.C. § 409
§ 409. Application for copyright registration
The application for copyright registration shall be
made on a form prescribed by the Register of Copyrights and shall include—
(1) the name and address of the copyright claimant;
(2) in the case of a work other than an anonymous
or pseudonymous work, the name and nationality
or domicile of the author or authors, and, if one or
more of the authors is dead, the dates of their
deaths;
(3) if the work is anonymous or pseudonymous, the
nationality or domicile of the author or authors;
(4) in the case of a work made for hire, a statement
to this effect;
(5) if the copyright claimant is not the author, a
brief statement of how the claimant obtained ownership of the copyright;
(6) the title of the work, together with any previous
or alternative titles under which the work can be
identified;
(7) the year in which creation of the work was completed;
(8) if the work has been published, the date and nation of its first publication;

11a
(9) in the case of a compilation or derivative work,
an identification of any preexisting work or works
that it is based on or incorporates, and a brief, general statement of the additional material covered
by the copyright claim being registered; and
(10) any other information regarded by the Register of Copyrights as bearing upon the preparation
or identification of the work or the existence, ownership, or duration of the copyright.
If an application is submitted for the renewed and extended term provided for in section 304(a)(3)(A) and
an original term registration has not been made, the
Register may request information with respect to the
existence, ownership, or duration of the copyright for
the original term.

12a
17 U.S.C. § 410
§ 410. Registration of claim and issuance of
certificate
(a) When, after examination, the Register of Copyrights determines that, in accordance with the provisions of this title, the material deposited constitutes
copyrightable subject matter and that the other legal
and formal requirements of this title have been met,
the Register shall register the claim and issue to the
applicant a certificate of registration under the seal of
the Copyright Office. The certificate shall contain the
information given in the application, together with
the number and effective date of the registration.
(b) In any case in which the Register of Copyrights
determines that, in accordance with the provisions of
this title, the material deposited does not constitute
copyrightable subject matter or that the claim is invalid for any other reason, the Register shall refuse
registration and shall notify the applicant in writing
of the reasons for such refusal.
(c) In any judicial proceedings the certificate of a registration made before or within five years after first
publication of the work shall constitute prima facie
evidence of the validity of the copyright and of the
facts stated in the certificate. The evidentiary weight
to be accorded the certificate of a registration made
thereafter shall be within the discretion of the court.
(d) The effective date of a copyright registration is
the day on which an application, deposit, and fee,
which are later determined by the Register of

13a
Copyrights or by a court of competent jurisdiction to
be acceptable for registration, have all been received
in the Copyright Office.

14a
17 U.S.C. § 411
§ 411. Registration and civil infringement
actions
(a) Except for an action brought for a violation of the
rights of the author under section 106A(a), and subject to the provisions of subsection (b), no civil action
for infringement of the copyright in any United States
work shall be instituted until preregistration or registration of the copyright claim has been made in accordance with this title. In any case, however, where
the deposit, application, and fee required for registration have been delivered to the Copyright Office in
proper form and registration has been refused, the applicant is entitled to institute a civil action for infringement if notice thereof, with a copy of the
complaint, is served on the Register of Copyrights.
The Register may, at his or her option, become a party
to the action with respect to the issue of registrability
of the copyright claim by entering an appearance
within sixty days after such service, but the Register’s
failure to become a party shall not deprive the court
of jurisdiction to determine that issue.
(b)(1) A certificate of registration satisfies the requirements of this section and section 412, regardless
of whether the certificate contains any inaccurate information, unless—
(A) the inaccurate information was included on the
application for copyright registration with
knowledge that it was inaccurate; and
(B) the inaccuracy of the information, if known,

15a
would have caused the Register of Copyrights to refuse registration.
(2) In any case in which inaccurate information described under paragraph (1) is alleged, the court shall
request the Register of Copyrights to advise the court
whether the inaccurate information, if known, would
have caused the Register of Copyrights to refuse registration.
(3) Nothing in this subsection shall affect any rights,
obligations, or requirements of a person related to information contained in a registration certificate, except for the institution of and remedies in
infringement actions under this section and section
412.
(c) In the case of a work consisting of sounds, images,
or both, the first fixation of which is made simultaneously with its transmission, the copyright owner may,
either before or after such fixation takes place, institute an action for infringement under section 501,
fully subject to the remedies provided by sections 502
through 505 and section 510, if, in accordance with
requirements that the Register of Copyrights shall
prescribe by regulation, the copyright owner—
(1) serves notice upon the infringer, not less than
48 hours before such fixation, identifying the work
and the specific time and source of its first transmission, and declaring an intention to secure copyright in the work; and
(2) makes registration for the work, if required by
subsection (a), within three months after its first
transmission.

16a
17 U.S.C. § 412
§ 412. Registration as prerequisite to certain
remedies for infringement
In any action under this title, other than an action
brought for a violation of the rights of the author under section 106A(a), an action for infringement of the
copyright of a work that has been preregistered under
section 408(f) before the commencement of the infringement and that has an effective date of registration not later than the earlier of 3 months after the
first publication of the work or 1 month after the copyright owner has learned of the infringement, or an
action instituted under section 411(c), no award of
statutory damages or of attorney’s fees, as provided
by sections 504 and 505, shall be made for—
(1) any infringement of copyright in an unpublished work commenced before the effective
date of its registration; or
(2) any infringement of copyright commenced after
first publication of the work and before the effective
date of its registration, unless such registration is
made within three months after the first publication of the work.

17a
17 U.S.C. § 505
§ 505. Remedies for infringement: Costs and attorney’s fees
In any civil action under this title, the court in its discretion may allow the recovery of full costs by or
against any party other than the United States or an
officer thereof. Except as otherwise provided by this
title, the court may also award a reasonable attorney’s fee to the prevailing party as part of the costs.

18a
17 U.S.C. § 506
§ 506. Criminal offenses
(a) Criminal infringement.—
(1) In general.—Any person who willfully infringes a copyright shall be punished as provided
under section 2319 of title 18, if the infringement
was committed—
(A) for purposes of commercial advantage or private financial gain;
(B) by the reproduction or distribution, including by electronic means, during any 180-day period, of 1 or more copies or phonorecords of 1 or
more copyrighted works, which have a total retail value of more than $1,000; or
(C) by the distribution of a work being prepared
for commercial distribution, by making it available on a computer network accessible to members of the public, if such person knew or should
have known that the work was intended for commercial distribution.
(2) Evidence.—For purposes of this subsection,
evidence of reproduction or distribution of a copyrighted work, by itself, shall not be sufficient to establish willful infringement of a copyright.
(3) Definition.—In this subsection, the term
“work being prepared for commercial distribution”
means—

19a
(A) a computer program, a musical work, a motion picture or other audiovisual work, or a sound
recording, if, at the time of unauthorized distribution—
(i) the copyright owner has a reasonable expectation of commercial distribution; and
(ii) the copies or phonorecords of the work
have not been commercially distributed; or
(B) a motion picture, if, at the time of unauthorized distribution, the motion picture—
(i) has been made available for viewing in a
motion picture exhibition facility; and
(ii) has not been made available in copies for
sale to the general public in the United States
in a format intended to permit viewing outside
a motion picture exhibition facility.
(b) Forfeiture, destruction, and restitution.—
Forfeiture, destruction, and restitution relating to
this section shall be subject to section 2323 of title 18,
to the extent provided in that section, in addition to
any other similar remedies provided by law.
(c) Fraudulent Copyright Notice.—Any person
who, with fraudulent intent, places on any article a
notice of copyright or words of the same purport that
such person knows to be false, or who, with fraudulent intent, publicly distributes or imports for public
distribution any article bearing such notice or words
that such person knows to be false, shall be fined not
more than $2,500.

20a
(d) Fraudulent Removal of Copyright Notice.—
Any person who, with fraudulent intent, removes or
alters any notice of copyright appearing on a copy of a
copyrighted work shall be fined not more than $2,500.
(e) False Representation.—Any person who knowingly makes a false representation of a material fact
in the application for copyright registration provided
for by section 409, or in any written statement filed in
connection with the application, shall be fined not
more than $2,500.
(f) Rights of Attribution and Integrity.—Nothing
in this section applies to infringement of the rights
conferred by section 106A(a).

21a
17 U.S.C. § 507
§ 507. Limitations on actions
(a) Criminal Proceedings.—Except as expressly
provided otherwise in this title, no criminal proceeding shall be maintained under the provisions of this
title unless it is commenced within 5 years after the
cause of action arose.
(b) Civil Actions.—No civil action shall be maintained under the provisions of this title unless it is
commenced within three years after the claim accrued.

22a
37 C.F.R. § 202.3
§ 202.3 Registration of copyright
…
(b) Administrative classification and application
forms—
…
(4) Registration as one work. For the purpose of registration on one application and upon the payment
of one filing fee, the following shall be considered
one work: In the case of published works, all copyrightable elements that are otherwise recognizable
as self-contained works, that are included in the
same unit of publication, and in which the copyright claimant is the same.
…

23a
U.S. Copyright Office, Compendium of Copyright Office Practices § 607.01
(2d ed. 1988)
…
607.01 Registration as a single unit: published
works. Works that are otherwise recognizable as
self-contained may be registered on a single application and upon payment of a single fee, if
they are first published in a single unit of publication and the copyright claimant of all works in
the unit is the same. See 37 C.F.R. 202.3(b)(3)(A);
see also 37 C.F.R. 202.3(b)(5).
…

24a
U.S. Copyright Office, Compendium of U.S.
Copyright Office Practices, §§ 1009.4, 1103,
1904.1 (3d ed. 2017)
…
1009.4 Date and Nation of First Publication
When completing an application, the applicant—
not the U.S. Copyright Office—must determine
whether the work is published or unpublished. This
may be difficult when the applicant intends to register a website or website content. Often times, the
website as a whole maybe viewed as an unpublished work, but the particular content that appears on the site may be deemed published if it has
been explicitly authorized for distribution (e.g.,
with a button that enables users to “download”
website content, an icon that invites users to “save”
website content, or a feature that allows users to
transmit content by email or other means).
As a general rule, the Office will accept the applicant’s representation that a work is published or
unpublished, unless that statement is implausible
or is contradicted by information provided elsewhere in the registration materials or in the Office’s records or by information that is known by the
registration specialist.
If the applicant determines that the work has been
authorized for distribution to the public, the applicant must identify the date and nation of first publication for that work. In most cases, the date of
first publication is the date that the work was

25a
posted online with the authorization of the copyright owner.
If the applicant intends to register multiple works
and if those works were published on successive
dates, the applicant generally should submit a separate application with a separate date of publication for each work. Likewise, separate applications
and separate publication dates may be required if
the applicant intends to register multiple versions
of the same work and if each version was distributed on a different date. Indeed, every work that is
added to a website may constitute a derivative
work or a contribution to a collective work, and a
separate application and separate publication date
may be required for each date that new material
has been authorized for distribution on that site. In
some cases the applicant may need to limit the
claim to each individual work that was added to the
website on a particular date, while in other cases
the applicant may need to exclude previously published material that was distributed on the website
on an earlier date.
By contrast, if the applicant determines that the
work was placed online solely for the purpose of
public display or public performance, the work may
be deemed unpublished. An application for an unpublished work may cover all of the copyrightable
material contained in the deposit copy(ies) that is
owned by the copyright claimant, provided that the
material has not been previously published or previously registered with the Office. As discussed in
Section 1008.6(B), it may also be possible to register a number of unpublished works with one

26a
application, one filing fee, and one set of deposit
copies if the applicant satisfies the requirements
for registering the works as an unpublished collection. If the applicant subsequently decides to register unpublished material that was added to the
website at a later date, the applicant may seek a
new registration for the new material when the copyright owner determines that further protection is
desirable.
1009.4(A) Date of Publication
When completing an online application, the applicant will be asked to provide publication information on the Publication / Completion screen. If
the applicant determines that the work has been
published, the applicant should select “yes” in the
drop down menu marked “Has this work been published?” In addition, the applicant should provide
the month, day, and year that the work was published for the first time. Specifically, the applicant
should provide the date that the work was first distributed or the date that the work was offered to a
group of persons for the purpose of further distribution, performance, or display (whichever is earlier).
As a general rule, the applicant should only provide
a date of first publication for the specific version
that will be submitted for registration. The applicant should not provide a date of publication for any
other version of the work that will not be submitted
to the Office.
If the applicant determines that the work is unpublished, the applicant should select “no” on the
Publication / Completion screen.

27a
When completing a paper application the applicant
should provide the date of first publication in space
3(b) under the heading marked “Date and Nation of
Publication of This Particular Work.” If the work
has not been published, space 3(b) should be left
blank.
For additional guidance concerning this portion of
the application, see Chapter 600, Section 612.
1009.4(A)(1) Date of First Publication for the
Original Version of a Work
If the applicant intends to register a work that was
published on the original version of a website, the
applicant generally should provide the month, day,
and year that the work was first posted on that site.
Example:
• J.J. Cool created a website to promote his music career. On May 18, 2012 he uploaded several
songs that have never been published before, and
he offered them for sale for $1.99 apiece. J.J. intends to register the words, lyrics, and sound recordings embodied in these songs. J.J. submits a
separate application for each work, and in each
case, he states that the work was first published
on May 18, 2012. The registration specialist will
register the claims.
1009.4(A)(2) Date of First Publication for Subsequent Versions of a Work
If the applicant intends to register a revised version
of a published website, the applicant generally

28a
should provide the month, day, and year that the
revised content was first posted on that site.
Example:
• Zeke Quarry operates a website called “Internal Revolution,” which contains a compilation of
public domain photographs from the Civil War.
Users may download content from the website if
they pay a subscription fee. Zeke launched the
site on December 20, 2004, and he intends to register the selection of images that he added to the
site on January 1, 2013, June 30, 2013, and December 31, 2013. Zeke submits a separate application for each batch of images, and he states
that these updates were first published on January 1, 2013, June 30, 2013, and December 31,
2013. If each compilation contains a sufficient
amount of creative expression, the registration
specialist will register these claims.
1009.4(A)(3) Content Published Online and in
Hard Copy Form
If the applicant determines that the work was published both online and in hard copy form (e.g., in
physical copies or phonorecords), the applicant
should provide the date that the work was first published, regardless of whether the first publication
occurred online or in hard copies.
1009.4(B) Nation of First Publication
If the applicant determines that the work has been
published, the applicant must identify the nation of

29a
first publication. The Office may use this information to determine if the work is eligible for protection under U.S. copyright law.
When completing an online application the applicant should identify the country where the work
was first published by selecting one of the countries
listed in the drop down menu marked Nation of
first publication. When completing a paper application, the application should provide this information on space 3(b) next to the heading marked
Nation. For guidance in completing this portion of
the application, see Chapter 600, Section 612.
As a general rule, the nation of first publication is
the country where copies or phonorecords of the
work were first published with the authorization of
the copyright owner. This determination may be
difficult when the applicant intends to register a
website or website content, because the law in this
area is unsettled. If the website was directed at users in a particular country (e.g., a website written
entirely in Danish with a domain name ending in
the suffix .dk), that country could be deemed the
nation of first publication for purposes of copyright
registration. The location of the server where the
work resides and/or the scope of the intended audience may also be relevant to this issue.
Upon request, the Office will provide the applicant
with general information about the Copyright Act
and the legislative history for the statute, including
the statutory definition of publication and the provisions concerning nation of publication. However,
the Office will not give specific legal advice on

30a
whether a work has or has not been published
within a particular country. Instead, the Office
leaves this determination to the applicant and the
courts, because they are in a better position to assess the complete facts in any particular situation.
…
1103 The Unit of Publication Option
The U.S. Copyright Office has established an administrative procedure that allows an applicant to
register a number of works that were physically
packaged or bundled together as a single unit by
the claimant and first published on the same date.
This is known as the “unit of publication” option.
A registration issued under this option covers each
work in the unit that is owned by the copyright
claimant.
A unit of publication is different from an unpublished collection in that the works in the unit
cannot be aggregated simply for the purpose of registration, but rather must have been first distributed to the public in the packaged unit. A unit of
publication is also different from a collective work
in that the unit is not a compilation of works, but
rather a package of separate and distinct copies or
phonorecords that are physically bundled together
and distributed to the public as a unit, such as a
board game containing instructions, a game board,
and sculpted playing pieces. However, a unit may
contain a compilation or collective work, such as a
CD containing sound recordings packaged together

31a
with cover art and liner notes.
For additional information concerning the unit of
publication option, see Section 1107. For additional
information concerning the unpublished collection
option, see Section 1106. For additional information concerning collective works, see Chapter
500, Section 509.1 and Chapter 600, Sections 610.4,
613.8, 618.7, 620.8, and 621.8(D).
…
1904.1 Applicant Makes the Determination
The applicant—not the U.S. Copyright Office—
must determine whether a work is published or unpublished.
The U.S. Copyright Act is the exclusive source of
copyright protection in the United States, and all
applicants—both foreign and domestic—must
demonstrate that a work satisfies the requirements
of U.S. copyright law to register a work with the
Office. Determining whether a work is published or
unpublished should be based on U.S. copyright law
under Title 17, and it should be based on the facts
that exist at the time the application is filed with
the Office, even if the work was created in a foreign
country, first published in a foreign country, or created by a citizen, domiciliary, or habitual resident
of a foreign country.
Upon request, the Office will provide the applicant
with general information about the provisions of
the Copyright Act, including the statutory

32a
definition of publication, and will explain the relevant practices and procedures for registering a published or unpublished work with the Office. The
Office will not give specific legal advice on whether
a particular work has or has not been published.
However, if an assertion is clearly contrary to facts
known by the Office, a claim may be questioned, or
in certain situations, refused.

33a
…Paid Feb 02 2011
CHK #16542 [h/w]
Copyright Office
fees are subject to
change. For current fees check the
Copyright Office
website at
www.copyright.gov,
write the
Copy-right Office,
or call (202) 7073000.

Form VA
For a Work of the Visual
Arts
UNITED STATES COPYRIGHT OFFICE
REGISTRATION NUMBER
VA
VAU
EFFECITIVE DATE OF
REGISTRATION
Month 01
Day 28
Year 2011

DO NOT WRITE ABOVE THIS LINE. IF YOU
NEED MORE SPACE, USE A SEPARATE CONTINUATION SHEET.
Title of This Work▼
1
NATURE OF THIS WORK▼
See instructions
Floral:
EH103,EH105,EH111,CEH113,
EH123,EH132,CEH146,CEH147,
EH149,EH157,CEH175,EH181,
CEH182,EH183,EH185,CEH194,
EH196,EH200,EH210 Ethnic;
EH101,EH102,EH106,CEH109,
EH115,CEH116,EH119,EH120,
EH125,EH133,EH142,EH144

34a
Previous or Alternative Titles▼
Publication as a Contribution If
this work was published as a contribution to a periodical, serial, or collection, give information about the
collective work in which the contribution appeared.
Title of Collective Work▼
If published in a periodical or serial
give:
Volume▼
Number▼
Issue Date▼
On Pages▼

2

NAME OF AUTHOR▼

NOTE

a UNICOLORS, INC. AKA UNICOLORS STUDIO
Under the
law, the
DATES OF BIRTH AND DEATH
“author”
Year Born▼ Year Died▼
of a “work
made for
Was this contribution to the work
hire” is
a “work made for hire”?
generally
 Yes
the employer,
 No
not the
employee Author’s Nationality or Domicile
Name of Country
(see
OR Citizen of UNITED STATES

35a
instructions).
For any
part of
this work
that was
“made for
hire”
check
“Yes” in
the space
provided,
give the
employer
(or other
person for
whom the
work was
prepared)
as “Author” of
that part
and leave
the space
for dates
of birth
and death
blank.

Domiciled in U.S.A.
Was This Author’s Contribution to
the Work
Anonymous?

 Yes

Pseudonymous?

 No

 Yes

 No

If the answer to either of these questions is “Yes,” see detailed instructions.
Nature of Authorship
Check appropriate box(es).
See instructions
 3-Dimensional sculpture
 2-Dimensional artwork
 Reproduction of work of art
 Map
 Photograph
 Jewelry design
 Technical drawing
 Text
 Architectural work
b Name of Author▼
Dates of Birth and Death
Year Born▼

Year Died▼

Was this contribution to the work
a “work made for hire”?
 Yes

36a
 No
Author’s Nationality or Domicile
Name of Country
OR Citizen of
Domiciled in
Was This Author’s Contribution to
the Work
Anonymous?

 Yes

Pseudonymous?

 No

 Yes

 No

If the answer to either of these questions is “Yes,” see detailed instructions.
Nature of Authorship
Check appropriate box(es).
See instructions
 3-Dimensional sculpture
 2-Dimensional artwork
 Reproduction of work of art
 Map
 Photograph
 Jewelry design
 Technical drawing
 Text
 Architectural work

3

a Year in Which Creation of This
Work Was Completed
2011

Year

37a
This information must be given
in all cases.
b Date and Nation of First Publication of This Particular Work
Complete this information
ONLY if this work has been
published.
Month 01
Day 15
Year 2011
Nation
a COPYRIGHT CLAIMANT(S)
Name and address must be given
See ineven if the claimant is the same as
structions
the author given in space 2.▼
before
completUNICOLORS, INC. AKA UNIing this
COLORS STUDIO
space.
3251 E. 26th STREET
Los Angeles, CA 90058
Tel. (323) 307-9878
Fax. (323) 307-9879

4

Transfer If the claimant(s) named
here in space 4 is (are) different from
the author(s) named in space 2, give a
brief statement of how the claimant(s)
obtained ownership of the copyright.▼
DO NOT WRITE HERE
OFFICE USE ONLY

38a
APPLICATION RECEIVED
ONE DEPOSIT RECEIVED
TWO DEPOSITS RECEIVED
FUNDS RECEIVED
MORE ON BACK ►
 Complete all applicable spaces
(numbers 5-9) on the reverse side of
this page.
 See detailed instructions.
 Sign the form at line 8.
DO NOT WRITE HERE
Page 1 of

pages

39a
EXAMINED BY

FORM VA

CHECKED BY
CORRESPONDENCE
 Yes

FOR COPYRIGHT OFFICE
USE ONLY

DO NOT WRITE ABOVE THIS
LINE. IF YOU NEED MORE
SPACE, USE A SEPARATE CONTINUATION SHEET.

5

PREVIOUS REGISTRATION Has
registration for this work, or for an
earlier version of this work, already
been made in the Copyright Office'?
 Yes  No
If your answer is “Yes,” why is another
registration being sought? (Check appropriate box.)▼
a.  This is the first published edition of a work previously registered in unpublished form.
b.  This is the first application submitted by this author as copyright
claimant.
c.

 This is a changed version of the
work, as shown by space 6 on this
application.

If your answer is “Yes,” give:
Previous Registration Number ▼

40a
Year of Registration ▼

6

a

See instructions
before
completing this
space.

DERIVATIVE WORK OR
COMPILATION
Complete both space 6a and 6b
for a derivative work; complete
only 6b for a compilation.
a. Preexisting Material Identify any preexisting work or
works that this work is based
on or incorporates.▼

b
b. Material Added to This
Work Give a brief, general
statement of the material
that has been added to this
work and in which copyright
is claimed.▼

7

a

DEPOSIT ACCOUNT If the registration fee is to be charged to a
Deposit Account established in the
Copyright Office, give name and
number of Account.
Name▼
Account Number▼

b

CORRESPONDENCE Give
name and address to which correspondence about this application
should be sent.

41a
Name/Address/Apt/City/State/
Zip ▼
UNICOLORS, INC.
3251 E. 26th STREET,
LOS ANGELES CA 90058
Tel. (323) 307-9878
Fax. (323) 307-9879
Area code and daytime telephone
number
(
)
Fax number

(

)

Email

8

CERTIFICATION*
I, the undersigned, hereby certify that
I am the
check only one ►

author

other copyright claimant
 owner of exclusive
right(s)

authorized agent of
UNICOLORS, INC.
Name of author or other
copyright claimant, or
owner of exclusive
rights)▲
of the work identified in this application and that the statements made by
me in this application are correct to
the best of my knowledge.

42a

Typed or printed name and date▼
If this application gives a date of publication in space 3, do not sign and
submit it before that date.
UNICOLORS, INC.
By: NADER PAZIRANDEH
Date 01/28/2011
Handwritten signature (X) ▼
X [h/w signature]

9

Certificate will be mailed in window envelope to this address:
Name ▼
UNICOLORS, INC.
Number/Street/Apt ▼
3251 E. 26th STREET
City/State/ZIP ▼
LOS ANGELES, CA 90058
YOU MUST:
 Complete all necessary spaces
 Sign your application in space 8
SEND ALL 3 ELEMENTS IN THE
SAME PACKAGE:
1. Application form
2. Nonrefundable filing fee in check or
money order payable to Register of
Copyrights

43a
3. Deposit material
MAIL TO:
Library of Congress
Copyright Office
101 Independence Avenue SE
Washington, DC 20559-6000
*17 USC §506(e): Any person who
knowingly makes a false representation of a material fact in the application for copyright registration provided
for by section 409, or in any written
statement filed in connection with the
application, shall be fined not more
than $2,500.
Form VA – Full
Rev: 07/2006
Print: 07/2006 – 30,000
Printed on recycle paper.
U.S. Government Printing Office 2004320-358/60-125

